Judd E. Stone II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

October 15, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Joe Michael Luna v. Bobby Lumpkin, Director, Texas Department of Criminal
Justice, Correctional Institutions Division, No. 21-5460
Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4, Respondent Bobby Lumpkin,
Director, Texas Department of Criminal Justice, Correctional Institutions Division,
respectfully moves for an extension of the time for ﬁling his response to the petition
for a writ of certiorari in this matter. This is Respondent’s second request for an
extension of time.
This is a capital case. The response is currently due on October 25, 2021.
Respondent requests a 21-day extension, creating a new ﬁling date of November 15,
2021. My ofﬁce conferred with counsel for Petitioner on October 15, and Petitioner
does not oppose the requested extension.
The extension is needed because the undersigned counsel and other counsel
assisting with this matter have numerous brieﬁng and argument obligations,
including:
• Wardrip v. Lumpkin, No. 21-5226 in this Court (brief in opposition due
October 27);
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Scott S. Harris
October 15, 2021
Page 2
• Ramirez v. Collier, No. 21-5592 in this Court (brief for respondents ﬁled
October 15; oral argument set for November 1);
• Henderson, et al. v. The Source for Public Data, L.P., et al., No. 21-1678 in the
Fourth Circuit (amicus brief ﬁled October 15);
• United States v. Texas, No. 21-50949 in the Fifth Circuit (emergency motion
to stay ﬁled October 8; reply in support of emergency motion to stay ﬁled
October 14); and
• Texas Department of Public Safety v. K.T., Nos. 20-0977 & 21-0075 in the
Supreme Court of Texas (response to amicus brief ﬁled October 4).
For the foregoing reasons, Respondent respectfully requests an extension of the
time for ﬁling a response to the petition for a writ of certiorari, creating a new ﬁling
date of November 15, 2021.
Sincerely,
/s/ Judd E. Stone II
JUDD E. STONE II
Solicitor General
Counsel of Record

cc:

Stuart Brian Lev (via e-mail)

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

